RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-595
Eric O’Day, et al.,
Individually, On Behalf of the SunEdison, Inc. Retirement Savings Plan,
Petitioners,
v.
Ahmad Chatila, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Mark B. Blocker, certify that
the Brief in Opposition for Respondents Ahmad Chatila, Emmanuel Hernandez,
Antonio R. Alvarez, Clayton C. Daley, Jr., Georganne C. Proctor, Steven V.
Tesoriere, James B. Williams, Randy H. Zwirn, The SunEdison Retirement Savings
Plan Investment Committee, Brian Wuebbels, Phelps Morris, Matthew Herzberg,
Matt Martin, and James Welsh in the foregoing case contains 7,890 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 6, 2019.
/s/ Mark B. Blocker
MARK B. BLOCKER
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000

